(2 of 2)

■*

No. 21-1294

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: BLAKE JOSEPH SANDLAIN,

)
)
)
)

Petitioner.

Mar 29, 2021
DEBORAH S. HUNT, Clerk

ORDER

Upon sua sponte review, the clerk notes that the petitioner seeks relief in mandamus
against the United States Court of Appeals for the Sixth Circuit for an alleged delay in
determining whether a certificate of appealability should issue in Case No. 20-1697. Although
this court has not issued a ruling in 20-1697, Federal Rule of Appellate Procedure 22(b)(1)
requires that the district court first issue a ruling on whether a certificate of appealability should
issue. The record reflects that the matter remains pending before the district court.
As

Case No.

21-1294

is

not properly

before

this

court,

the

case

is

ADMINISTRATIVELY CLOSED as improvidently opened.

ENTERED PURSUANT TO RULE 45(a)
RULES OF THE SIXTH CIRCUIT

Deborah S. Hunt, Clerk

A

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
BLAKE JOSEPH SANDLAIN,
s

Petitioner
Case No.: 14-20283
Hon. Gershwin A. Drain

v.

UNITED STATES OF AMERICA,
Respondent.

ORDER DENYING PETITIONER LEAVE TO FILE A MOTION FOR
PRODUCTION OF PLEA AND SENTENCING TRANSCRIPTS 1#144L
DENYING PETITIONER LEAVE TO FILE A RULE 60(b)(4) MOTION
f#146L DENYING MOTION FOR STATUS OF WHY PETITIONER HAS
NOT RECEIVED A COPY OF HIS PLEA/SENTENCING TRANSCRIPTS
r#148h DENYING MOTION REQUESTING APPEAL BOND [#150L
DENYING MOTION TO SUPPLEMENT LEAVE TO FILE 60(b)(4) f#151L
DENYING MOTION FOR JUDICIAL NOTICE TO REQUEST THAT
INJUSTICES BE REMEDY f#1531 AND DENYING MOTION PURSUANT
TO 28 U.S.C. S 455(a) REQUESTING THAT THE ABOVE JUDGE RECUSE
HKMSELF FROM HEARING PENDING MOTION FOR LEAVE TO FILE
60(b)(4) MOTION BEFORE THE COURT r#1541
Petitioner Blake Sandlain pleaded guilty to possession of a firearm by a felon
in violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2), and possession with intent to
distribute 100 grams of heroin, in violation of 21 U.S.C. § 841(a)(1) and (b)(1)(B).
The Court sentenced Petitioner to 180 months imprisonment. Petitioner did not

1
4

pursue a direct appeal.
Petitioner has filed two 28 U.S.C. § 2255 Motions to Vacate, Set Aside or
Correct Sentence and. numerous, post-judgment motions challenging his conviction
and sentence, many of which raise

identical arguments that have already been
■

.

-'••••••

'••

•

■

•

"

-

•.

'•

V-:.-

.

, ,,

considered and rejected by this Court. As a result, the Court enjoined Petitioner
from filing additional motions without obtaining leave from the Court. See ECF No.
i

l
i

t

j 18. On April 27, 2020, the United Slates Court of Appeals for the Sixth Circuit
affirmed this Court’s imposition of prefiling restrictions in this matter, holding that
“Sandlain’s actions demonstrate why such orders are necessary. This motion marks
his third attempt to circumvent the district court’s restriction on filing frivolous
motions without leave to do so.” United States v. Blake Sandlain, No. 19-2100 (6th

;

Cir. Apr. 27, 2020).
Consistent with his previous filings, Petitioner continues to file frivolous
motions without requesting and receiving leave to do so. The few instances where
Petitioner has sought leave to file a motion likewise do not merit granting his
requested relief.

-■

i

Petitioner’s first request for leave seeks permission to file a motion for his
sentencing and plea hearing transcripts. ECF No. 144. Title 28 U.S.C. § 753(f)
governs the production of transcripts free of charge in criminal proceedings, which

2

(A
states in relevant part:
Fees for transcripts furnished in criminal proceedings to persons
proceeding under the Criminal Justice Act (18 U.S.C. § 3006A), or in
habeas corpus proceedings to persons allowed to sue, defend, or appeal
in forma pauperis, shall be paid by the United States out of moneys
appropriated for these purposes. Fees for transcripts furnished in
proceedings brought under section 2255 of this tile [28 U.S.C. § 2255]
to persons permitted to sue or appeal in forma pauperis shall be paid by
the United States out of money appropriated for that purpose if the trial
judge or a circuit judge certifies that the suit or appeal is not frivolous
and that the transcript is needed to decide the issue presented by the
suit or appeal. Fees for transcripts furnished in other proceedings to
persons permitted to appeal in forma pauperis shall also be paid by the
United States if the trial judge or a circuit judge certifies that the appeal
is not frivolous (but presents a substantial question).
28 U.S.C. § 753(f) (emphasis supplied).
Petitioner has not established he is entitled to free transcripts at government
expense under 28 U.S.C. 753(f). Petitioner does not explicitly state that he needs his
sentencing and plea transcripts in order to assert his proposed claim in a successive
habeas petition, however the correct mechanism for a federal prisoner to challenge
/

his conviction is through a motion to vacate, set aside or correct sentence pursuant to
28 U.S.C. § 2255.

Because Petitioner has already filed two previous § 2255

Motions, his ability to bring a successive habeas petition is constrained by § 2255(h).
Additionally, Petitioner would need to receive permission from the Sixth Circuit
Court of Appeals to bring a successive § 2255 petition.

See 28 U.S.C.

§2244(b)(3)(A) (requiring petitioners to obtain authorization from the court of
3

„•> *
appeals “before a second or successive [habeas] application is filed in the district
court.”). Because Petitioner’s request for leave to file a motion for his transcripts
relies on a frivolous claim in support of his anticipated successive § 2255 habeas
petition, the Court will deny his request for leave.
Specifically, in order to bring a successive § 2255 habeas petition, Petitioner
must allege a claim (1) based on “newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be sufficient to establish by clear
and convincing evidence that no reasonable factfinder would have found the movant
guilty of the offense,” or (2) based on “a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously
unavailable.” 28 U.S.C. § 2255(h).
Here, Petitioner relies on Rehaif v. United States, 139 S.Ct. 2191 (2019) in
support of his request for plea and sentencing transcripts. The Supreme Court held
in Rehaif that, “in a prosecution under 18 U.S.C. § 922(g) and § 924(a)(2), the
Government must prove both that the defendant knew he possessed a firearm and
that he knew he belonged to the relevant category of persons barred from possessing
a firearm.” Id. at 2200. Petitioner fails to provide any specificity concerning how
the circumstances of his case are impacted by the decision in Rehaif. He only states
that ite/zm/“makes a particularized showing that petitioner [sic] plea agreement were

4

[sic] not knowingly and voluntarily [sic], and that the district court failed to establish
a factual basis for the plea.” ECF No. 144, PageID.834. He does not assert that his
proposed Rehaif claim is based on newly discovered evidence. Nor is Rehaif “a new
rule of constitutional law made retroactive to cases on collateral review by the
Supreme Court,” rather it is “a matter of statutory construction that has not been
made retroactive.” In re Kelly, No. 20-5091, 2020 U.S. App. LEXIS 17509 (6th Cir.
Jun. 3, 2020) (citing Khamisi-El v. United States, 800 F. App’x 344, 349 (6th Cir.
2020)); see also In re Palacious, 93 L F.3d 1314, 1315 (11th Cir. 2019). Moreover,
by pleading guilty, Petitioner waived his right to attack the sufficiency, of the
evidence to sustain his conviction. See United States v. Manni, 810 F.2d 80, 84 (6th
Cir. 1987) (“[A]n attack on the sufficiency of the evidence that might have been
produced at trial [is] clearly waived by [a] defendant’s guilty plea.”).
To the extent Petitioner’s intent is to argue that the Government was required
to prove he knew he was not permitted to possess a firearm in order to sustain his
conviction under § 922(g), such an argument is without merit. The Rehaif court
explained that:
We hold that the word “knowingly” applies both to the defendant’s
conduct and to the defendant’s status. To convict a defendant, the
Government therefore must show that the defendant knew he possessed
a firearm and also that he knew he had the relevant status when he
possessed it.

5

X

Id. at 2194. As such, the Government was required to prove that Petitioner “was
aware of his ‘relevant status,’ meaning that he knew that he was a ‘felon, an alien
unlawfully in the country, or the like,’ it does not include proof that the defendant
specifically knew that he was prohibited from possessing firearms.”

Dillon v.

Warden, No. 6:19-295-DCR, 2019 U.S. Dist. LEXIS 219075, *8-9 (E.D. Ky. Dec.
20, 2019) (internal citation omitted) (citing United States v. Bowens, 938 F.3d 790,
797 (6th Cir. 2019)) (concluding that “[t]he defendants’ reading of Rehaif goes too
far because it runs headlong into the venerable maxim that ignorance of the law is no
excuse.”). Petitioner does not assert that he was unaware of his status as a cojnvicted
felon, nor could he when he stipulated to this fact in his plea agreement, “and
because Rehaif does not require more, his [anticipated successive] petition fails to
state any viable claim for relief.” Dillon, 2019 U.S. Dist. LEXIS 219075, at *10.
The plea and sentencing transcripts are therefore unnecessary to resolve
Petitioner’s frivolous claim under Rehaif. Petitioner is not entitled to free transcripts
at government expense. As such, leave to file a motion for plea and sentencing
hearing transcripts will be denied.
Next, Petitioner seeks leave for permission to file a Rule 60(b)(4) motion
stemming from this Court’s October 20, 2015 Opinion and Order denying § 2255
relief. This denial has been affirmed on appeal. Sandlain v. United States, 15-2519

6

(6th Cir. Jul. 8, 2016).
Petitioner argues that he is entitled to Rule 60 relief based on the holding in
Shelton v. United States, 800 F.3d 292 (6th Cir. 2015), because this Court failed to
review Petitioner’s reply brief before resolving Petitioner’s August 26, 2015 § 2255
Petition. In Shelton, the issue before the Sixth Circuit was whether the district court
could sua sponte dismiss a § 2255 habeas petition based on untimeliness grounds.
Id. at 293-94. The Shelton court ultimately concluded the parties must be given
notice and an opportunity to be heard on the matter prior to sua sponte dismissal on
untimeliness grounds. Id. Unlike the petitioner in Shelton, this Court, denied
Petitioner § 2255 relief on the merits, concluding he could not establish a right to
relief on his ineffective assistance of counsel claims under Strickland v. Washington,
466 U.S. 668 (1984). See ECF No. 72; see also Sandlain v. United States, 15-2519
(6th Cir. Jul. 8, 2016).
Finally, the Court notes that the Rules governing habeas corpus proceedings
do not require the filing of a reply brief. See Rule 5(d), Rules Governing Section
2255 Cases (“The petitioner may submit a reply . . . .”). The Advisory Committee
Notes to the 1976 Amendment state that similar to “Rule 5 of the § 2254 rules, there
is no intention here that such a traverse be required, except in exceptional
circumstances.” See also Rule 5(e), Rules Governing Section 2254 Cases, 1976

7

Advisory Committee Note (stating that “Rule 5 ... . does not contemplate a traverse
to the answer, except under special circumstances . . . . where it will serve a truly
useful purpose” such as where the answer raises facts that the district judge finds to
be untrue). Petitioner’s reply would have served no useful purpose. See ECF No.
83, PageID.570 (“The Court rendered its denial of the Petitioner’s Section 2255
motion not because it is biased against the Petitioner, but because the Court
possessed enough facts to base its decision without the need for a reply.”). Based on
the foregoing considerations, Petitioner’s Request for Leave to File a Rule 60(b)(4)
Motion will also be denied.
Petitioner’s remaining filings fail to comply with this Court’s previous order
enjoining Petitioner from filing further motions without first seeking and obtaining
leave of the Court. These motions will therefore be summarily denied.

See ECF

Nos. 118; 148, 150-51, 153-54; see also United States v. Blake Sandlain, No. 192100 (6th Cir. Apr. 27, 20'20) (affirming this Court’s imposition of prefiling
restrictions against Petitioner for repeated and vexatious filings).
Accordingly, Petitioner’s Request for Leave to File Motion for Production of
Plea and Sentencing Hearing Transcripts [#144] is DENIED. Petitioner’s Request
for Leave to File a Rule 60(b)(4) Motion [#146] is DENIED. Petitioner’s Motion for
Status of Why Petitioner Has Not Received a Copy of his Plea/Sentencing

8

Transcripts on Motion for Leave [#48] is DENIED. Petitioner’s Motion Requesting
Appeal Bond [#150] is DENIED. Petitioner’s Motion to Supplement Leave to File
60(b)(4) with this Court [#151] is DENIED. Petitioner’s Motion for Judicial Notice
to Request that an Injustice be Remedied [#153] is DENIED. Petitioner’s Motion
Pursuant to 28 U.S.C. § 455(a) Requesting that the Above Judge Recuse Himself
from Hearing Pending Motion for Leave to File 60(b)(4) Motion before the Court
[#154] is DENIED.
SO ORDERED.
/s/Gershwin A. Drain
GERSHWIN A. DRAIN
United States District Judge

Dated: June 22, 2020

CERTIFICATE OF SERVICE

■:?

Copies of this Order were served upon attorneys of record and on Blake Sandlain,
#12250-088, FCI McDowell, 101 Federal Drive, Welch, WV 24801 on
---June 22, 2020, by electronic and/or ordinary mail.
/s/ Teresa McGovern
Deputy Clerk

9

